                                                       HEALTH &. HUMA SERVICES                                     Office of Inspector General
  ~~:'
(.....;ø DEPARTMENT OF
                                                                                                                   Washington, D.C. 20201



                                                                                  JAN 2 6 2009


                 TO: Perr Rhew
                                          Chief Administrative Law Judge
                                          Office of Medicare Hearngs and Appeals


                 FROM: Danel R. Levinson                                    /S/
                                         Inspector General


                 SUBJECT: Memorandum Report: "Medicare Administrative Law Judge Hearngs:
                                         Update, 2007-2008," OEI-02-06-001 11



                 This memorandum report compares the performance of the Offce of Medicare Hearngs and
                 Appeals (OMHA) durng its first year of operation to its performance durng its thrd year of.
                 operation. OMRA is responsible for admstering Medicare administrative law judge (ALJ)
                 hearngs, which is the thrd level of the Medicare admnistrative appeals process. In September
                 2008, the Senate Committee onFinance requested that the Offce of   Inspector General (OIG)
                 conduct a follow-up study to its previous report on OMR's first year of operation. i The
                 Committee specifically asked OIG to provide updated information regarding the timeliness of
                 ALJ decisions and the quality of the data in the appeals system.

                 From the first to third year of operation, OMR's caseload increased 37 percent and the
                 proportion of cases subject to the 90-day decision requirement also increased. At the same time,
                 there was little change in the hearng formats used and the types of primary appellants. In
                 addition, OMHA improved the timeliness of its decisions from its first to thrd year of operation.
                 For the cases that had a 90-day decision requirement, OMRA decided 94 percent on time in its
                 thrd year, compared to 85 percent inits first year of operation. For the cases Without the 90-day
                 decision requirement, OMRA decided a slightly greater percentage of      these cases withn
                 6 months; however, there was also a slight increase in the average number of days to decide
                 these cases. Lastly, OMRA improved the quality ofthe data in the appeals system from its first
                 to its third year of operation.

                 BACKGROUN
                 The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA) changed
                 the maner in which Medicare beneficiares and providers exercise their right to appeal coverage
                 decisions.2 In paricular, the MMA required a transfer of                 the responsibilty for conducting ALJ

                 1 OIG, "Medicare Administrative Law Judge Heargs: Early Implementation, 2005-2006," OEI-02-06-00l 10,
                 July 2008.
                 2 MM, P.L. No. 108-173, §§ 931-940A.


                 OEI-02-06-00111                     Medicare Adminstrative Law Judge Hearngs: Update, 2007-2008
Page 2 – Perry Rhew


hearings from the Social Security Administration (SSA) to the Department of Health and Human
Services (HHS). 3 As a result, in July 2005, HHS opened OMHA, which assumed responsibility
for certain Medicare administrative appeals previously handled by SSA. 4 Under SSA, hearings
were held primarily in person at the 141 Social Security offices throughout the country, and there
was no timeliness requirement for appeal decisions. In contrast, OMHA, with four field offices,
planned to use primarily telephones and video teleconferences to conduct ALJ hearings. Further,
OMHA faced a new statutory requirement that certain cases be decided within 90 days.

Given these changes, in December 2005, the Senate Committee on Finance requested that OIG
assess the use of the telephone, video teleconference, and in-person hearings to decide Medicare
ALJ cases and determine the extent to which OMHA was meeting the new statutory requirement
to decide certain cases within 90 days. In response, OIG released a report entitled “Medicare
Administrative Law Judge Hearings: Early Implementation, 2005–2006” (OEI-02-06-00110).
OIG found that in OMHA’s first 13 months of operation, it conducted an estimated
three-quarters of its hearings by telephone. It also found that most sample appellants were
satisfied with their hearing format but that incomplete and inaccurate data limited OMHA’s
ability to manage its caseload. Lastly, OIG found that available data indicated that in its first
13 months of operation, OMHA did not decide a number of its cases in a timely manner.

Four-Level Medicare Administrative Appeals Process
There are four levels of the Medicare administrative appeals process within HHS. For Medicare
Parts A and B claims appeals, the four levels are:

•   Level One:         Affiliated Contractor redeterminations
•   Level Two:         Qualified Independent Contractor reconsiderations
•   Level Three:       ALJ hearings
•   Level Four:        Medicare Appeals Council hearings

If appellants disagree with the outcome of the prior level of appeal, they may take their cases to
the next level. For example, if an appellant is not satisfied with the reconsideration by the
Qualified Independent Contractor, the appellant may request a hearing before an ALJ. The ALJ
independently reviews the case and makes a decision in accordance with applicable laws and
regulations. After exhausting the four levels of the administrative appeals process, an appellant
may file an action in a Federal District Court. Appendix A provides an overview of each of the
four levels of the administrative appeals process for Medicare Parts A and B.

Different procedures exist for appealing determinations regarding Medicare Parts A and B
entitlement and enrollment, 5 Medicare Part C (the Medicare Advantage program), and Medicare
Part D (the Medicare prescription drug benefit). For Level One and Level Two, the entities that
decide the appeals for Medicare Parts A and B entitlement and enrollment appeals and Medicare
Parts C and D appeals are different from the entities that decide the appeals for Medicare

3
  MMA, P.L. No. 108-173, § 931.
4
  70 Fed. Reg. 36386 (June 23, 2005). OMHA began operations on July 1, 2005.
5
  Parts A and B entitlement and enrollment appeals involve making decisions regarding Medicare benefits and
beneficiaries that are unrelated to Medicare coverage and payment for specific items and services. SSA continues to
handle the determinations and reconsiderations for these cases.


OEI-02-06-00111           Medicare Administrative Law Judge Hearings: Update, 2007–2008
Page 3 – Perry Rhew


Parts A and B claims appeals. 6 However, for Level Three, the ALJ is responsible for deciding
all Medicare appeals. 7

Federal Requirements
Section 521 of the Medicare, Medicaid, and State Children’s Health Insurance Program Benefits
Improvement and Protection Act of 2000 (BIPA) amended section 1869 of the Social Security
Act (the Act) to establish a uniform process for handling Medicare Parts A and B claims appeals
and to impose shorter timeframes for the processing of these appeals.8 The Centers for Medicare
& Medicaid Services promulgated regulations to address the changes to the claims appeals
process required by the BIPA and the MMA. 9

Section 1869(d)(1)(A) of the Act, as amended by the BIPA, generally requires that an ALJ issue
a decision about a case within 90 days of the date when the appeal request was filed. 10 The
90-day requirement generally applies to all Medicare Parts A and B claims appeals received after
the implementation of the BIPA, unless the appellant waives the right to have the case decided
within 90 days 11 or OMHA approves a request for an in-person hearing. 12 13 The 90-day
requirement does not apply to Medicare Parts A and B entitlement and enrollment appeals or to
Medicare Parts C or D appeals. An appellant may request an ALJ hearing by filing a written
request within 60 days of receiving a Level Two decision. 14 The ALJ must mail or serve a
notice of hearing at least 20 days before the hearing. 15

Federal regulations state that the ALJ will direct that the appearance of an individual be
conducted by video teleconference if the ALJ finds that video teleconferencing technology is
available to conduct the appearance. 16 The regulations go on to state that the ALJ may also offer
to conduct a hearing by telephone if the hearing request or administrative record suggests that a
telephone hearing may be more convenient for one or more of the parties. If video
teleconference technology is not available or if special or extraordinary circumstances exist, the

6
  For requirements for the appeal process prior to Level 3 for Medicare Parts A and B entitlement and enrollment,
see 20 CFR pt. 404, subpart J; for Medicare Part C, see 42 CFR pt. 422, subpart M; and for Medicare Part D,
see 42 CFR pt. 423, subpart M.
7
  Regarding the right to an ALJ hearing for Medicare Parts A and B entitlement and enrollment appeals, see
20 CFR § 404.929; for Medicare Parts A and B claims appeals, see 42 CFR § 405.1002; for Medicare Part C, see
42 CFR § 422.600; and for Medicare Part D, see 42 CFR § 423.610.
8
  BIPA, P.L. No. 106-554 § 521.
9
  70 Fed. Reg. 11420 (Mar. 8, 2005), as amended at 70 Fed. Reg. 37700 (June 30, 2005).
10
   42 U.S.C. § 1395ff(d)(1)(A); 42 CFR § 405.1016(a).
11
   42 U.S.C. § 1395ff(d)(1)(B); 42 CFR § 405.1036(d).
12
   42 CFR § 405.1020(i). OMHA’s approval of an appellant’s request for an in-person hearing is different from an
OMHA determination that an in-person hearing should be conducted because video teleconference technology is not
available or because special or extraordinary circumstances exist. In the latter situation, the 90-day requirement
applies.
13
   In addition, cases that are escalated to OMHA because the prior level did not complete the reconsideration within
the federally required timeframe are not subject to the 90-day decision requirement. See 42 CFR § 405.1016(c).
14
   42 CFR § 405.1014(b)(1) (pertaining to Medicare Parts A and B). Similar requirements exist for Medicare Part C
at 42 CFR § 422.602(b) and for Medicare Part D at 42 CFR § 423.612(b).
15
   42 CFR § 405.1022(a).
16
   42 CFR § 405.1020(b) (pertaining to Medicare Parts A and B). Federal regulations state that the time and place
for ALJ hearings for Medicare Parts C and D must be set in accordance with 42 CFR § 405.1020.
42 CFR § 422.602(b) (regarding Medicare Part C); 42 CFR § 423.612(b) (regarding Medicare Part D).


OEI-02-06-00111           Medicare Administrative Law Judge Hearings: Update, 2007–2008
Page 4 – Perry Rhew


ALJ may determine that an in-person hearing should be conducted. Moreover, if a party objects
to a hearing via telephone or video teleconference, the party may file a written request for an
in-person hearing, which the ALJ may grant if there is good cause. 17 To determine whether
good cause exists, the ALJ considers the party’s reason for requesting the change, the facts
supporting the request, and the impact on the efficient administration of the hearing process. 18
For example, an ALJ may find that there is good cause for an in-person hearing if the party is
close to and able to go to an OMHA field office or if the case presents complex, challenging, or
novel presentation issues. 19 In certain circumstances, the ALJ may make an on-the-record
decision that is based only on the case file and does not require a hearing. 20

Medicare Appeals System
The Medicare Appeals System (hereinafter referred to as the appeals system) was designed to
create a unified case-tracking system across the four levels of administrative appeal once the ALJ
function was transferred from SSA to HHS. The appeals system stores and facilitates the
transfer of case-specific data. Currently, Levels Two and Three of the appeals process use the
appeals system.

The appeals system includes a variety of case-specific information that OMHA uses to manage
its caseload. It includes information such as the type of service being contested, the hearing
format, the date when OMHA received the appeal request, and the date when the decision letter
was sent to the appellant. It also lists the parties involved with each case; indicates which party
is the primary appellant; and specifies whether each party is a Medicare provider or supplier, a
beneficiary, or a State Medicaid organization. 21 OMHA staff can input new data into the appeals
system regarding Level Three of the appeals process.

METHODOLOGY

The information provided in this report is based on an analysis of data from the appeals system
for OMHA’s third year of operation. These data include all cases received by OMHA between
June 1, 2007, and May 31, 2008. Our previous report is based on data from the appeals system
for OMHA’s first 13 months of operation (hereinafter referred to as the first year of operation).
That report included data for all cases received by OMHA between July 1, 2005, and
July 31, 2006. 22 The data from the appeals system were organized by case. Each case may have
multiple claims. Each case may also have multiple parties, one of whom may be identified as the
primary appellant.


17
   42 CFR § 405.1020(i).
18
   42 CFR § 405.1020(g).
19
   See 70 Fed. Reg. 11420, 11457 (Mar. 8, 2005) (preamble discussion regarding good cause for in-person hearings).
20
   42 CFR § 405.1038. The ALJ may issue an on-the-record decision if the decision is fully favorable, if all parties
wish to forgo a hearing, or if an appellant who lives outside the United States does not inform the ALJ that the
appellant wants to appear and no other parties wish to appear.
21
   These organizations serve as appointed representatives for State Medicaid agencies. A State Medicaid agency
may appeal services provided to beneficiaries who are dually eligible for Medicaid and Medicare to determine
whether Medicare is liable for the payment rather than Medicaid.
22
   For the third year of operation, the data included all information about these cases through September 1, 2008; for
the first year, the data included all information about these cases through September 12, 2006.


OEI-02-06-00111            Medicare Administrative Law Judge Hearings: Update, 2007–2008
Page 5 – Perry Rhew


We first assessed the composition of OMHA’s caseload to identify any changes from its first
year to its third year of operation. 23 Specifically, we compared the total number of cases and the
percentage of cases by Medicare appeal type, by hearing format type, and by type of primary
appellant.

We also analyzed the data to assess the timeliness of ALJ decisions. To accomplish this, we
analyzed the cases that were subject to the 90-day requirement separately from the cases that
were not subject to this requirement. As previously mentioned, the 90-day decision requirement
generally applies to all Medicare Parts A or B claims appeals received after the implementation
of the BIPA unless the appellant signs a waiver or OMHA approves an appellant request for an
in-person hearing. 24 The 90-day requirement does not apply to Medicare entitlement and
enrollment appeals or to Medicare Parts C or D appeals.

To conduct this analysis, we compared the date when OMHA received the appeal request to the
date when OMHA sent a decision letter to the appellant, including any allotted extension days
plus a 3-day grace period to cover any holiday weekends. 25 We did not include the cases that did
not have decision letter dates. A case may not have this date because it was not decided or
because the date had not been recorded in the appeals system. For cases with the 90-day
requirement, we determined the percentage of cases that had been decided on time. For cases
without the 90-day decision requirement, we determined the percentage of cases that had been
decided within 6 months. For cases with and without the 90-day requirement, we calculated the
average number of days between the dates when OMHA received the appeal requests and the
dates when OMHA sent decision letters to the appellants.

Limitations
The information about OMHA’s third year of operation was based on an analysis of data from
the appeals system. In contrast, the information about OMHA’s first year of operation was based
on an analysis of data from the appeals system and on structured interviews with a sample of
appellants. In the first year, because some of the data in the appeals system were inaccurate or
missing, the results for several estimates were based on projections from our sample rather than
on the population of cases in the appeals system. These estimates included the percentage of
hearings conducted by telephone, by video teleconference, and in person and the percentage of
hearings by appellant type. For these estimates, we compared the results for OMHA’s third year
to the confidence interval for the estimate for OMHA’s first year of operation. Lastly, the
calculation of the total number of cases subject to the 90-day requirement in the first year in this
report differs slightly from our previous report. For this report, we recategorized six cases that

23
   We excluded three cases from the analysis of the third year because the decision dates in the appeals system were
recorded erroneously as being earlier than the dates when the appeals requests were received. We excluded 16 cases
from the analysis of the first year for this reason.
24
   Note that in some cases, OMHA staff may make determinations that in-person hearings should be conducted
without receiving official requests from appellants. In these cases, the hearings would need to be decided within
90 days. In our analysis, all cases with in-person hearings were treated as not being subject to the 90-day
requirement as OMHA’s appeals system does not distinguish between cases in which appellants made the requests
for in-person hearings from cases in which OMHA staff made such determinations.
25
   The regulations provide for extension days in cases in which hearings are postponed at the request of the
appellants or in certain other circumstances, such as a party requesting discovery from another party.
See 42 CFR §§ 405.1020(h) and 405.1037(f).


OEI-02-06-00111           Medicare Administrative Law Judge Hearings: Update, 2007–2008
Page 6 – Perry Rhew


were Medicare Parts A and B entitlement and enrollment appeals. These cases were not, in fact,
subject to the 90-day requirement. This change, however, does not alter the percentage of cases
meeting the 90-day requirement in the previous report.

Standards
This review was conducted in accordance with the “Quality Standards for Inspections” issued by
the President’s Council on Integrity and Efficiency and the Executive Council on Integrity and
Efficiency.

RESULTS

From Its First to Third Year of Operation, OMHA’s Caseload Increased 37 Percent and
the Proportion of Cases Subject to the 90-day Decision Requirement Also Increased
From its first to third year of operation, OMHA’s overall caseload increased 37 percent from
20,767 to 28,361 cases. The number of Medicare Parts A and B cases that OMHA received
increased by 37 percent from 19,432 to 26,529. The number of Part C cases increased by
29 percent from 1,196 to 1,539 cases, and the number of Part D cases increased by 111 percent
from 139 to 293 cases. Approximately one quarter of the increase in OMHA’s caseload was
attributable to appeals associated with the Recovery Audit Contractor program, a new Medicare
program designed to detect and collect overpayments. 26

In addition, there was a substantial shift from cases without the 90-day decision requirement to
cases with the requirement from the first to third year of operation. As shown in Figure 1 on the
next page, the number of cases with the 90-day decision requirement more than tripled, from
6,079 to 20,720 cases. In contrast, the number of cases without the 90-day requirement was
reduced by almost half, from 14,688 to 7,641 cases. The shift to more cases with the 90-day
requirement occurred because, in the third year, all Parts A and B claims appeals were submitted
after the implementation of the BIPA and were therefore generally subject to the 90-day
requirement. Conversely, in the first year, almost all of the Parts A and B claims appeals were
submitted before the implementation of the BIPA and were therefore not subject to the
requirement.




26
   The Recovery Audit Contractor program, initially authorized as a demonstration project in section 306 of the MMA,
is designed to reduce Medicare improper payments through detection and collection of overpayments and to identify
underpayments. It was made permanent in 2006, and authority for the program is now found at section 1893(h) of the
Act. As of March 2008, the Recovery Audit Contractors identified $992.7 million in overpayments, $46.0 million
(4.6 percent) of which was overturned on appeal. “The Medicare Recovery Audit Contractor (RAC) Program: An
Evaluation of the 3-Year Demonstration,” June 2008. Available online at
http://racaudits.com/uploads/RAC_Demonstration_Evaluation_Report.pdf. Accessed on November 25, 2008.


OEI-02-06-00111           Medicare Administrative Law Judge Hearings: Update, 2007–2008
Page 7 – Perry Rhew


                                 Figure 1: Number of Cases With and Without the 90-Day Decision
                                  Requirement for the First and Third Years of OMHA Operation

                                           30,000                                  (28,361)




                         Number of Cases
                                                                                     7,641    27%
                                                          (20,767)
                                           20,000


                                                          14,688     71%
                                           10,000                                   20,720    73%



                                                           6,079     29%
                                               0
                                                        First Year                 Third Year
                                                    Cases without the 90-day decision requirement
                                                    Cases with the 90-day decision requirement


                  Source: OIG analysis of the Medicare Appeals System, 2008.


There Was Little Change in the Hearing Formats Used and the Types of Primary
Appellants From OMHA’s First to Third Year of Operation
In its third year of operation, OMHA conducted 85 percent of its hearings by telephone. This
was a slight increase from the first year of operation, when OMHA conducted an estimated
78 percent of its hearings by telephone. This estimate had a 95-percent confidence interval of
73 percent to 83 percent. In addition, OMHA conducted 8 percent of its hearings by video
teleconference and 7 percent in person in its third year of operation. These percentages were not
statistically different from those in OMHA’s first year of operation. 27

There were no significant changes in the types of primary appellants from OMHA’s first to third
year of operation. In the third year of operation, for 78 percent of the cases that had hearings, the
primary appellants were Medicare providers or suppliers. Another 13 percent of these cases had
primary appellants who were Medicare beneficiaries, and 9 percent were pursued by State
Medicaid organizations. None of these percentages were statistically different from those in the
first year of operation. 28

In addition, in the third year of operation, 28 percent of the cases had on-the-record decisions. 29
An on-the-record decision is based only on the case file and does not require a hearing. In


27
   The 95-percent confidence intervals for the first year were 8.0 percent to 15.1 percent for video teleconference
hearings and 6.1 percent to 13.9 percent for in-person hearings.
28
   The 95-percent confidence intervals for the first year were 71.3 percent to 84.4 percent for Medicare providers or
suppliers, 8.5 percent to 20.5 percent for beneficiaries, and 4.3 percent to 10.9 percent for State Medicaid
organizations.
29
   Less than 1 percent of decided cases in the third year of operation had no information about whether there were
hearings or on-the-record decisions.


OEI-02-06-00111                     Medicare Administrative Law Judge Hearings: Update, 2007–2008
Page 8 – Perry Rhew


OMHA’s first year of operation, there was no information for almost one-third of the decided
cases. For the cases that had information, 13 percent were on-the-record decisions.

OMHA Improved the Timeliness of Its Decisions From Its First to Third Year of Operation
Although its caseload increased by 37 percent, OMHA improved the timeliness of its decisions
from its first to third year of operation. Improvements in timeliness were found primarily in
cases with the 90-day decision requirement, rather than in cases without the 90-day decision
requirement. The cases with the 90-day decision requirement represented 73 percent of
OMHA’s caseload in its third year of operation, compared to 29 percent in its first year. In
addition, OMHA scheduled hearings more quickly in its third year of operation compared to its
first year.

For cases with the 90-day decision requirement, OMHA decided a greater percentage of cases
on time from its first to third year of operation. During its third year of operation, OMHA had
20,616 cases that had a 90-day decision requirement and decision dates recorded in the appeals
system. 30 (See Table 1.) OMHA decided 94 percent of these cases (19,377 of 20,616) on time.
In contrast, during its first year of operation, OMHA had 3,275 cases that had a 90-day decision
requirement and decision dates recorded in the appeals system. OMHA decided 85 percent of
these cases (2,776 of 3,275) on time. See Appendix B for the percentages of cases decided
within 90 days by quarter.

Further, the percentage of cases with the 90-day decision requirement that had been in the
appeals system for longer than 90 days with no decision dates decreased from OMHA’s first to
third year of operation. Because the data for the first year of operation were incomplete, this
change may reflect improvements in data quality as well as timeliness.

Table 1: Timeliness of Cases With the 90-Day Decision Requirement During the First and Third
Years of OMHA’s Operation
                                                                     Number of Cases             Number of Cases
                                                                        in First Year               in Third Year
Cases With Decision Dates in Appeals System                                     3,275                      20,616
     Decided within 90 days                                                       2,776                     19,377
     Not decided within 90 days                                                    499                        1,239
Cases Without Decision Dates in Appeals System                                    2,804                           104
     In appeals system for longer than 90 days                                    1,178                            54
     In the appeals system for 90 days or fewer                                   1,626                            50
Total Number of Cases With the 90-Day Decision
                                                                                  6,079                     20,720
Requirement
Source: OIG analysis of the Medicare Appeals System, 2008.



In addition, OMHA decreased the average number of days to decide cases with the 90-day
requirement from its first to third year of operation. On average, OMHA decided these cases in
69 days in its third year, compared to 82 days in its first year of operation. OMHA also achieved
more consistency among its four field offices in the number of days to decision. During its third
30
     Another 104 cases had a 90-day decision requirement but did not have decision dates in the appeals system.


OEI-02-06-00111                 Medicare Administrative Law Judge Hearings: Update, 2007–2008
Page 9 – Perry Rhew


year, the average number of days varied from 65 to 76 days among its four field offices, whereas,
during its first year of operation, the average number of days to decide these cases varied from
59 to 88 days.

For cases without the 90-day decision requirement, OMHA decided a slightly greater percentage
of cases within 6 months; however, there was also a slight increase in the average number of
days to decide these cases. For cases that were not subject to the 90-day decision requirement,
OMHA decided a greater percentage of cases within 6 months in its third year, compared to its
first year of operation. In its third year, OMHA decided 90 percent of these cases that had
decision dates (6,582 of 7,305) within 6 months. In contrast, OMHA decided 88 percent of these
cases (7,503 of 8,503) within 6 months in its first year. (See Table 2.)

 Table 2: Timeliness of Cases Without a 90-Day Requirement During the First and Third Years of
 OMHA’s Operation
                                                                      Number of Cases              Number of Cases
                                                                         in First Year                in Third Year
 Cases With Decision Dates in Appeals System                                     8,503                        7,305
     Decided within 6 months                                                       7,503                           6,582
     Not decided within 6 months                                                   1,000                            723
 Cases Without Decision Dates in Appeals System                                    6,185                            336
     In appeals system for longer than 6 months                                    2,142                             63
     In the appeals system for 6 months or fewer                                   4,043                            273
 Total Number of Cases Without a 90-Day
                                                                                  14,688                           7,641
 Requirement
 Source: OIG analysis of the Medicare Appeals System, 2008.



At the same time, there was a slight increase in the average number of days to decision for the
cases without the 90-day decision requirement. In its third year, OMHA decided Parts C and D
cases in an average of 89 days, compared to 82 days in its first year. Further, in its third year,
OMHA decided Parts A and B cases that were not subject to the 90-day decision requirement in
an average of 119 days, compared to 110 days in its first year. The increase in the average
number of days for the Parts A and B cases may be because of changes in the composition of
these cases. In the third year, these cases were not subject to the 90-day decision requirement
because, for example, the appellants waived the requirement or requested and were granted
in-person hearings. In contrast, in the first year, these cases were not subject to the 90-day
requirement primarily because they had been received before the implementation of the BIPA.

OMHA scheduled hearings more quickly in its third year of operation, compared to its first year.
For cases with and without the 90-day decision requirement, improvements in timeliness from
the first to third year of operation were found early in the appeals process. As shown in
Figure 2 on the next page, for the cases that had hearings during its third year of operation,
OMHA took an average of 40 days to schedule hearings from the time when it received the
appeals requests, compared to 66 days in its first year. 31 At the same time, the subsequent

31
  The analyses in this section include only the cases that have information on the relevant dates in the appeals
system.


OEI-02-06-00111                Medicare Administrative Law Judge Hearings: Update, 2007–2008
Page 10 – Perry Rhew


stages—from scheduling the hearings to the completion of the hearings and from the completion
of the hearing to mailing the decision letter to the appellant—each increased by 3 days from the
first to third year of operation.

       Figure 2: Average Number of Days To Complete Key Steps in the Appeals Process
       for the First and Third Years of OMHA Operation
                                               66 days                          29 days         20 days
                First
                Year
                          Request                                     Scheduling           Hearing        Decision
                          Received                                    Completed           Completed        Letter


                                        40 days                   32 days          23 days
               Third
               Year
                          Request                    Scheduling              Hearing      Decision
                          Received                   Completed              Completed      Letter


     Source: OIG analysis of the Medicare Appeals System, 2008.


OMHA Improved the Quality of the Data in the Appeals System From Its First to Third
Year of Operation
OMHA relies on the appeals system as the primary mechanism to collect data about the program
and to manage its caseload. In the first year of OMHA’s operation, we found that information in
the appeals system was frequently inaccurate or missing. Our subsequent review of OMHA’s
third year of operation indicates that OMHA has improved the quality of the data in the appeals
system.

Information about the primary appellant was more complete. From its first to third year of
operation, the percentage of decided cases with no indication about which party was the primary
appellant dropped from 71 percent to less than 1 percent.

Information about the hearing type and format was also more complete. The percentage of
decided cases with no information about whether there were hearings or on-the-record decisions
dropped from 31 percent to less than 1 percent. In addition, the percentage of cases that had
hearings with no information about whether the hearings were conducted by telephone, by video
teleconference, or in person dropped from 35 percent in the first year of operation to less than
1 percent in the third year.

Information about key dates was more complete and accurate. The percentage of decided cases
with no dates indicating when OMHA requested and received the case files from the previous
level dropped from more than 75 percent to less than 5 percent. In addition, the percentage of
decided cases in which at least one date was out of chronological order dropped from 22 percent
to 6 percent.




OEI-02-06-00111              Medicare Administrative Law Judge Hearings: Update, 2007–2008
Page 11 – Perry Rhew


CONCLUSION

From the first to third year of operation, OMHA’s caseload increased 37 percent and the
proportion of cases subject to the 90-day decision requirement also increased. At the same time,
there was little change in the hearing formats used and the types of primary appellants. In
addition, OMHA improved the timeliness of its decisions from its first to third year of operation.
For the cases that had a 90-day decision requirement, OMHA decided 94 percent on time in its
third year, compared to 85 percent in its first year of operation. For the cases without the 90-day
requirement, OMHA decided a slightly greater percentage of these cases within 6 months;
however, there was also a slight increase in the average number of days to decide these cases.
Lastly, OMHA improved the quality of the data in the appeals system from its first to third year
of operation.

This report is being issued directly in final form because it has no recommendations. If you have
comments or questions about this report, please provide them within 60 days. Please refer to
report number OEI-02-06-00111 in all correspondence.




OEI-02-06-00111       Medicare Administrative Law Judge Hearings: Update, 2007–2008
Page 12 – Perry Rhew


APPENDIX A

MEDICARE PARTS A AND B ADMINISTRATIVE APPEALS PROCESS
Below is an overview of the four levels of the Medicare administrative appeals process for
Medicare Parts A and B claims appeals.

Level One: Affiliated Contractor Redetermination
At the first level, an appellant may request a redetermination with an Affiliated Contractor
(i.e., Medicare carrier or fiscal intermediary) within 120 days of receipt of the notice of the initial
determination. 32 The redetermination must be made by an individual who was not involved in
the initial determination. This individual reviews evidence, including previously submitted
evidence and any additional evidence that the parties submit or the individual obtains, to uphold
or reject the initial determination. At both this level and the second level, the appellant may
contest a denied claim of any dollar amount. Generally, the Affiliated Contractor must make a
redetermination decision within 60 days of receipt of the request for redetermination.

Level Two: Qualified Independent Contractor Reconsideration
If the appellant does not agree with the Level One decision, the appellant may request a
reconsideration with a Qualified Independent Contractor (QIC) within 180 days of receipt of the
Level One decision. 33 In a manner similar to the Level One review, the QIC reviews historical
evidence and prior findings, as well as any new evidence submitted by the appellant. QICs are
bound by national coverage determinations (NCD), the Centers for Medicare & Medicaid
Services (CMS) rulings, and applicable laws and regulations. 34 QICs are not bound by local
coverage determinations (LCD); local medical review policies (LMRP); or CMS program
guidance, such as program memoranda and manual instructions. QICs, however, do give
substantial deference to those policies, if applicable. 35 Generally, a QIC has 60 days to make a
decision from the date when the appellant filed an appeal. 36

Level Three: Administrative Law Judge Hearing
If an appellant wants to contest a Level Two reconsideration, the appellant may request a hearing
before an administrative law judge (ALJ). 37 38 This request must be filed within 60 days from
the receipt of notice of the Level Two reconsideration decision. At this level, the minimum


32
   See generally 42 U.S.C. §§ 1395ff(a)(3) and (5) and 42 CFR §§ 405.940−405.958 (specifying Federal
requirements for redeterminations).
33
   42 U.S.C. § 1395ff(b)(1)(D)(i). QICs are a new type of Medicare contractor created to conduct reconsiderations.
See generally 42 U.S.C. § 1395ff(c) and 42 CFR §§ 405.960−405.978 (specifying Federal requirements for
reconsiderations).
34
   42 CFR § 405.968(b)(1).
35
   42 CFR § 405.968(b)(2).
36
   Starting at Level Two, an appellant may escalate an appeal if it is not dealt with in a timely manner by the appeals
body. For example, a request for an ALJ hearing may be submitted if the QIC does not decide the appeal within
60 days. 42 U.S.C. § 1395ff(c)(3)(C)(ii).
37
   ALJs also handle Level Three Medicare Parts A and B entitlement and enrollment appeals and Medicare Parts C
and D appeals. For Parts A and B entitlement and enrollment, see 20 CFR §§ 404.900(a)(3), 404.929, and 404.933;
for Part C, see 42 CFR §§ 422.600 and 422.602; and for Part D, see 42 CFR §§ 423.610 and 423.612.
38
   See generally 42 U.S.C. § 1395ff(d) and 42 CFR § 405.1000−405.1054 (specifying Federal requirements for ALJ
hearings).


OEI-02-06-00111            Medicare Administrative Law Judge Hearings: Update, 2007–2008
Page 13 – Perry Rhew


amount in controversy is $120. 39 ALJs are bound by NCDs, but an ALJ may review the facts of
a particular case to determine whether an NCD applies to a specific claim for benefits and, if so,
whether the NCD was applied correctly to the claim. 40 ALJs are not bound by LCDs; LMRPs;
or CMS program guidance, such as program memoranda and manual instructions. ALJs,
however, do give substantial deference to those policies, if applicable. 41 Generally, the ALJ
must decide
Part A and Part B claims appeals within 90 days of the dates when appeal requests were filed.

Level Four: Medicare Appeals Council Review
If the appellant disagrees with the Level Three decision, the appellant may request a review with
the Medicare Appeals Council (MAC) 42 within 60 days of receipt of the ALJ hearing decision. 43
This is the last level of administrative review available to appellants. MAC may deny a request,
undertake a review, or remand the case to an ALJ for further action. MAC is bound by NCDs,
but MAC may review the facts of a particular case to determine whether an NCD applies to a
specific claim for benefits and, if so, whether the NCD was applied correctly to the claim. 44
MAC is not bound by LCDs, LMRPs, or CMS program guidance, but MAC does give
substantial deference to those policies, if applicable. 45 Generally, MAC must make a decision
with respect to Medicare Part A and Part B claims appeals within 90 days of the filing dates. If
the appellant disagrees with the MAC decision and the amount in controversy is at least
$1,180, 46 the appellant may file a civil action in Federal District Court within 60 days of
receiving the MAC decision.




39
   42 U.S.C. § 1395ff(b)(1)(E); 42 CFR § 405.1006(b)(1). See 72 Fed. Reg. 73348 (Dec. 27, 2007) for adjustment to
Medicare appeals amounts in controversy for 2008.
40
   42 CFR § 405.1060(b).
41
   42 CFR § 405.1062(a).
42
   Level Four review before MAC is also available for Medicare Parts A and B entitlement and enrollment appeals
and Medicare Parts C and D appeals. For Parts A and B entitlement and enrollment appeals, see
20 CFR § 404.967; for Part C, see 42 CFR § 422.608; and for Part D, see 42 CFR § 423.620.
43
   42 CFR § 405.1102(a)(1). MAC is a division of the Department of Health and Human Services Departmental
Appeals Board and consists of Administrative Appeals Judges. An appellant may also request a review by MAC if
the ALJ does not complete its review within 90 days. 42 U.S.C. ' 1395ff(d)(3)(A); 42 CFR § 405.1106(b). See
generally 42 U.S.C. § 1395ff(d) and 42 CFR §§ 405.1100−405.1140 (specifying Federal requirements for MAC
reviews).
44
   42 CFR § 405.1060(c).
45
   42 CFR § 405.1062(a).
46
   42 CFR § 405.1136, 42 U.S.C. § 1395ff(b)(1)(E); 42 CFR § 405.1006(c)(1). See 72 Fed. Reg. 73348
(Dec. 27, 2007) for adjustment to Medicare appeals amounts in controversy for 2008.


OEI-02-06-00111          Medicare Administrative Law Judge Hearings: Update, 2007–2008
Page 14 – Perry Rhew



APPENDIX B


  Percentage of Cases That Met the 90-Day Requirement,
  by Quarter, During the First and Third Years of OMHA’s Operation
                       Percentage of Cases That Met                       Percentage of Cases That Met
 Quarter                    the 90-Day Requirement                              the 90-Day Requirement
                                        in First Year                                      in Third Year
 1st                                                      63%                                                     91%

 2nd                                                      79%                                                     95%

 3rd                                                      82%                                                     95%

 4th                                                      90%                                                     95%

    Total                                                 85%                                                     94%
 Note: Ninety-six cases were excluded from this analysis in the first year because they were received after the
 4th quarter.
 Source: Office of Inspector General analysis of the Medicare Appeals System, 2008.




OEI-02-06-00111                  Medicare Administrative Law Judge Hearings: Update, 2007–2008
